The information in this document would apply to your account if you applied for a new account today.
(BLMDSNB180TC030121-PL)

DEPARTMENT STORES NATIONAL BANK CREDIT CARD DISCLOSURES
Bloomingdale’s Store Accounts
Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for
Purchases

25.24%*

How to Avoid Paying
Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by the
due date each month.
If you are charged interest, the charge will be no less than $2.

Minimum Interest
Charge
For Credit Card Tips
from the Consumer
Financial Protection
Bureau
Fees
Penalty Fees
• Late Payment
• Returned Payment

This APR will vary with the market based on the Prime Rate.

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Up to $40
Up to $40

How We Will Calculate Your Balance: We use a method called "Daily Balance (including current
transactions)". See your Credit Card Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in the Credit Card Agreement.
*The purchase APR is equal to the Prime Rate plus a margin of 21.99%.
Protections for Active Duty Service Members and their Dependents: Please see the section of the
Credit Card Agreement entitled “Protections for Active Duty Service Members and their Dependents.”

DEPARTMENT STORES NATIONAL BANK CREDIT CARD AGREEMENT
This Credit Card Agreement is your contract with us. It governs the use of your card and account. Please
read this Agreement carefully. Keep it for your records.
Definitions
account means the relationship established between you and us by this Agreement.
APR means an annual percentage rate.
authorized user means any person you allow to use your account.
card means one or more cards or other access devices that we give you to get credit under this
Agreement. This includes account numbers.
we, us, and our mean Department Stores National Bank, the issuer of your account. Department Stores
National Bank is located in Sioux Falls, SD.
you, your, and yours mean the person who applied to open the account. It also means any other person
responsible for complying with this Agreement.
Your Account
You agree to use your account in accordance with this Agreement. You must pay us for all amounts due
on your account. This Agreement is binding on you unless you close your account within 30 days after
receiving the card and you have not used or authorized use of the card. Your account must only be used
to purchase goods and services for personal, family and household use. Your account must only be used
for lawful transactions.
Authorized Users. You may request additional cards for authorized users. You must pay us for all
charges made by authorized users. You must pay us even if you did not intend to be responsible for
those charges. You must notify us to withdraw any permission you give to an authorized user to use your
account.
Joint Accounts. If this is a joint account, each of you is responsible individually and together for all
amounts owed. Each of you is responsible even if the account is used by only one of you. You will
continue to be liable for the entire balance of the account, even if your co-applicant is ordered by a court
to pay us. You will remain liable to us if your co-applicant fails to pay as ordered by the court. Your
account status will continue to be reported to the credit bureau under each of your names. The delivery of
notices or billing statements to either of you serves as delivery to each of you. We may rely on
instructions given by either of you. We are not liable to either of you for relying upon such instructions.
Credit Limit. Your initial credit limit is on the card carrier. After that, your credit limit appears on your
billing statement. The full amount of your credit limit is available to use where the card is honored. We
may reduce or increase your credit limit at any time for any reason as permitted by law. We will notify you
of any change, but the change may take effect before you receive the notice. You should always keep
your total balance below the credit limit. However, if the total balance goes over your credit limit you still
must pay us. If your account has a credit balance, we may reduce the credit balance by any new charges
on your account. You may not maintain a credit balance in excess of your credit limit.
Billing Statement. Your billing statement shows the New Balance. This is the total amount you owe us
on the Statement Closing Date. To determine the New Balance, we begin with the total balance at the
start of the billing cycle. We add any purchases.
We subtract any credits or payments. We then add any interest charges or fees and make other
adjustments. Your billing statement also shows your transactions; the Minimum Payment Due and
payment due date; your credit limit; and your interest charges and fees.

We deliver a billing statement to only one address. You must notify Customer Service of a change in
address. We may stop sending you statements if we deem your account uncollectible or start collection
proceedings; but we may continue to add interest and fees as permitted by law.
APRs
Variable APRs Based on Prime. If any APR is based on the U.S. Prime Rate ("Prime Rate"), the APR
will equal the Prime Rate plus an additional amount. If the Prime Rate increases, it will cause the APR to
increase. If the Prime Rate decreases, it will cause the APR to decrease. For each billing cycle we use
the Prime Rate published in The Wall Street Journal two business days before the Statement Closing
Date. If the Prime Rate causes an APR to change, we put the new APR into effect as of the first day of
the billing cycle for which we calculate the APR. We apply the new APR to any existing balances, subject
to any promotional rate that may apply. If The Wall Street Journal does not publish the Prime Rate, we
will use a similar published rate.
APR for Regular Purchases. There is a variable regular purchase APR. It equals the Prime Rate plus
21.99%. As of March 1, 2021, this Annual Percentage Rate is 25.24%. This APR equals a daily periodic
rate of 0.06915%.
Effect of APR Increases. If an APR increases, interest charges increase. Your minimum payment may
increase as well.
Promotions
We may offer promotional terms for all or a part of any balances. Any promotional terms may apply for a
limited period of time. They will be governed by the terms of the promotional offer and this Agreement.
They may include the Special Event and Club Plan offers described below. We may offer other
promotional offers from time to time. Your promotional terms will end when the promotional period
expires.
Special Event offers. If a promotional offer is a Special Event offer, interest is deferred, which means no
interest charges will be imposed on the Special Event balance if you pay the balance in full by the end of
the promotional period for that Special Event balance. We will impose interest charges on the Special
Event balance at the APR for regular purchases from the date of purchase if you do not pay the balance
in full by the end of the promotional period.
Club Plan offers. If a promotional offer is a Club Plan offer, no interest charges will be imposed on the
Club Plan balance.
Interest Charges Based on APRs
Interest Charges. We impose interest charges when we apply APRs to your account balances. We do
this every day by using a daily periodic rate. To get a daily periodic rate, we divide the APR by 365.
When Interest Charges Begin. We begin to impose interest charges the first day we add a charge to a
daily balance. The charges we add to a daily balance include purchases. They also include interest
charges and fees. We continue to impose interest charges until we credit your account with full payment
of the total amount you owe us. This method of assessing interest charges described in this section may
result in a billing statement with only an interest charge.
Grace Period on Purchases. You can avoid interest charges on purchases, but not on excluded
promotional balances. This is called a grace period on purchases. The grace period is at least 25 days.
To get a grace period on purchases, you must pay the New Balance by the payment due date every
billing cycle. If you do not, you will not get a grace period until you pay the New Balance for two billing
cycles in a row.

If you have a balance subject to a Special Event promotion and that promotion does not expire before the
payment due date, that balance (an “excluded promotional balance”) is excluded from the amount you
must pay in full to get a grace period on a purchase balance. In addition, if you have a Club Plan balance,
that balance (an “excluded promotional balance”) is excluded from the amount you must pay in full to get
a grace period on a purchase balance. However, you must still pay any separately required payment on
the excluded promotional balance. In billing cycles in which payments are allocated to Special Event
balances first, the Special Event balance will be reduced before any other balance on the account.
However, you will continue to get a grace period on purchases so long as you pay the New Balance (less
any excluded promotional balance, plus any separately required payment on an excluded promotional
balance) in full by the payment due date each billing cycle.
Other promotional offers not described above may also allow you to have a grace period on purchases
without having to pay all or a portion of the promotional balance by the payment due date. If either is the
case, the promotional offer will describe what happens.
Calculation of Interest Charges – Daily Balance Method (Including Current Transactions). We
calculate interest charges each billing cycle. To do this:
• We start with each of your different balances. These balances include, for example, regular
purchases, and different promotional balances. (When we calculate interest charges, we treat each
Special Event transaction separately even if it has the same terms as another Special Event
transaction.)
• We calculate the daily balance for each of your different balances. To get a daily balance, we start
with the balance as of the end of the previous day. We add any interest charge on the previous day's
balance. (This results in daily compounding of interest charges.) We add any new charges. We then
subtract any new credits or payments.
• We multiply each daily balance by the daily periodic rate that applies to it. We do this for each day in
the billing cycle. This gives us the daily interest charges for each of your different balances.
• We add up all the daily interest charges. The sum is the total interest charge for the billing cycle.
• You authorize us to round interest charges to the nearest cent.
When we calculate daily balances, we add a purchase as of the Transaction Date. (The Transaction Date
is on the billing statement.) We add a transaction fee to the same balance as the transaction. We
generally add other fees to the regular purchase balance. We subtract a payment or credit as of the day it
is credited to the account and then make other adjustments. We treat a credit balance as a balance of
zero.
Minimum Interest Charge. If we charge you interest, the charge will be no less than $2. We add the
charge to the regular purchase balance or allocate it among one or more of the balances that accrues
interest.
Balance Subject to Interest Rate. Your statement shows a Balance Subject to Interest Rate. It shows
this for each different balance. The Balance Subject to Interest Rate is the average of the daily balances
during the billing cycle. A billing cycle begins on the day after the Statement Closing Date of the previous
billing cycle. It includes the Statement Closing Date of the current billing cycle.
Fees
Late Fee. We may add a late fee for each billing cycle in which you have a past due payment. For late
fee purposes, you have a past due payment any time you fail to pay the Minimum Payment Due by the
payment due date. The fee will be $29; or $40 for any additional past due payment during the next six
billing cycles after a past due payment. However, the fee will not exceed the amount permitted by law.
We add this fee to the regular purchase balance.
Returned Payment Fee. We may add a returned payment fee for a returned payment. A returned

payment is an electronic debit, payment check, or similar payment instrument, that is returned unpaid. We
may add this fee the first time your payment is returned, even if it is not returned upon resubmission. The
fee will be $29; or $40 for any additional returned payment during the next six billing cycles after a
returned payment. However, the fee will not exceed the amount permitted by law. We add this fee to the
regular purchase balance.
Payments
Making Payments. You may pay all or part of your account balance at any time. However, you must
pay at least the Minimum Payment Due by the payment due date each billing cycle. The sooner you pay
the New Balance, the less you will pay in interest charges.
We calculate the Minimum Payment Due as follows. We begin with any past due amount. We add the
amount due on each Club Plan balance. We add any amount required by the Promotion Calculation. We
also add the largest of the following:
• The Calculated New Balance if it is less than $29;
• $29 if the Calculated New Balance is at least $29; or
• 1% of the Calculated New Balance (the result is rounded up to the nearest dollar) plus the amount of
your billed interest charges on that balance, any minimum interest charge allocated to that balance,
and any applicable late fee. However, we subtract interest charges that accrued during prior billing
cycles on a Special Event balance that ended during the billing cycle covered by the statement.
The Calculated New Balance equals the New Balance on the billing statement less any balances subject
to a Club Plan or the Promotion Calculation.
The amount due on a Club Plan balance is the smaller of:
• 1/12th of the Club Plan's Highest Balance plus any credit protection or credit insurance fee
allocated to that balance. (The result is rounded up to the nearest dollar.) Or
• The Club Plan's balance on the Statement Closing Date.
For each Club Plan balance, the Highest Balance is the highest Club Plan balance on a Statement
Closing Date, less any credit protection or credit insurance fee allocated to that balance for that cycle,
since the last time that balance was zero. The balance is zero at account opening.
If you have a Special Event balance subject to the Promotion Calculation, the Promotion Calculation will
equal 1% of this balance during the promotion period. (The result is rounded up to the next nearest cent.)
After the promotion period, any remaining Special Event balance will be included in the Calculated New
Balance. The Promotion Calculation will apply if, based on the amount of the Special Event transaction as
shown on the first statement that displays the transaction and the dollar amount in the Minimum Payment
Due calculation in effect at the time of the transaction, we determined that paying such dollar amount
each billing cycle would result in repayment of the Special Event balance before the end of the promotion
period.
The Minimum Payment Due may reflect adjustments to the New Balance. The Minimum Payment Due is
never more than the Calculated New Balance plus the Promotion Calculation plus the amount due on a
Club Plan balance.
Application of Payments. Payments in excess of the Minimum Payment Due are applied in
accordance with law. This means that we will generally apply payments in excess of the Minimum
Payment Due to higher APR balances first. However, excess payments received before a Special Event
promotion expires are applied to the Special Event promotional balance first in the last two billing cycles
of the promotional period. And, if the expiration date of a Special Event promotion is before the payment
due date in the billing cycle in which the Special Event promotion expires, excess payments received
before the Special Event promotion expires are applied to the Special Event promotional balance first in
the last three billing cycles of the promotional period. Payments equal to or less than the Minimum
Payment Due and credits are applied at our discretion and you authorize us to apply payments and

credits in a way that is most favorable or convenient for us. This may include applying such payments and
credits to lower APR balances first and to balances with longer promotional periods first.
Payment Instructions. We credit your payments in accordance with our payment instructions on the
billing statement. You must pay us in U.S. dollars. To do so, you must use a check, similar instrument, or
electronic debit that is drawn on and honored by a bank in the U.S. Do not send cash. We can accept late
or partial payments, or payments that reflect "paid in full" or other restrictive endorsements, without losing
our rights. We also reserve the right to accept payments made in foreign currency and instruments drawn
on funds on deposit outside the U.S. If we do, we select the currency conversion rate. We will then credit
your account in U.S. dollars after deducting any costs incurred in processing your payment. Or we may
bill you separately for these costs.
Credit Reporting
We may report information about your account to credit bureaus. Late payments, missed payments, or
other defaults on your account may be reflected in your credit report. We may report account information
in your name and the names of authorized users. We may also obtain follow-up credit reports on you.
If you think we reported incorrect information to a credit bureau, write us at the address shown on the
back of your billing statement in the section titled "Disputed Accuracy of Credit Report". We will
investigate the matter. We will then tell you if we agree or disagree with you. If we agree with you, we will
contact each credit bureau to which we reported and request a correction. If we disagree with you, we will
tell you that.
Information Sharing
You authorize us to share information about you as permitted by law. This includes information we get
from you and others. It also includes information about your transactions with us. Please see our Privacy
Notice for details about our information sharing practices. The identifying information you provided in your
credit application (including name, address, telephone number, email address and social security
number) as well as any updates to that information is provided to us, Macy’s, Inc. and their affiliates.
Changes to this Agreement
We may change the rates, fees, and terms of this Agreement from time to time as permitted by
law. The changes may add, replace, or remove provisions of this Agreement. We will give you
advance written notice of the changes and a right to opt out to the extent required by law.
Default
You default under this Agreement if you fail to pay the Minimum Payment Due by its due date; go over
your credit limit; pay by a check or similar instrument that is not honored or that we must return because it
cannot be processed; pay by electronic debit that is returned unpaid; file for bankruptcy; or fail to comply
with the terms of this Agreement. If you default, we may close your account and, to the extent permitted
by law, demand immediate payment of the total balance.
Refusal of the Card, Closed Accounts, and Related Provisions
Refusal of the Card. We do not guarantee approval of transactions. We are not liable for transactions
that are not approved. That is true even if you have enough credit. We may limit the number of
transactions approved in one day. If we detect unusual or suspicious activity, we may suspend your credit
privileges.
Preauthorized Charges. We may suspend any automatic or other preauthorized card charges you
arrange with a third party. We may do this if you default; if the card is lost or stolen; or we change your
account for any reason. If we do this, you are responsible for paying the third party directly if you wish to

do so. You are also responsible for reinstating the preauthorized charges if you wish to do so and we
permit it.
Lost or Stolen Cards or Account Numbers. You must call us if any card, account number, or check is
lost or stolen. You must also call us if you think someone used or may use them without permission.
When you call, we may require you to provide information to help our investigation. We may require you
to provide this information in writing. For example, we may ask you to identify any charges that were not
made by you or someone authorized by you. We may also ask you to confirm that you received no benefit
from those charges.
Closing Your Account. You may close your account by notifying us in writing or over the phone. If you
close your account, you must still repay the total balance in accordance with this Agreement. We may
also close your account or suspend account privileges at any time for any reason. We may do this without
prior notice to you. We may also reissue a different card at any time. You must return any card to us upon
request.
Protections for Active Duty Service Members and their Dependents
Protections. Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction or account: The costs associated
with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction;
any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card
account). You are entitled to these protections if you are a Covered Borrower, as defined below.
Covered Borrower. You are a Covered Borrower if, in connection with the opening of your account, we
determine you are an active duty member of the Armed Forces (including active Guard and Reserve duty)
or a dependent of an active duty member. You will cease to be a Covered Borrower if we determine you
are no longer an active duty member of the Armed Forces (including active Guard and Reserve duty) or a
dependent of an active duty member.
Oral Disclosures. If you are a Covered Borrower, you may obtain information related to your account,
including information about these protections and your payment obligation, by calling 1-877-625-6379.
TTY: Use 711 or other Relay Service.
Arbitration. The section of the Credit Card Agreement entitled “ARBITRATION” does not apply if
you are a Covered Borrower at the time your account is opened.

ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY.
THIS SECTION PROVIDES THAT DISPUTES MAY BE RESOLVED BY BINDING ARBITRATION.
ARBITRATION REPLACES THE RIGHT TO GO TO COURT, HAVE A JURY TRIAL OR INITIATE OR
PARTICIPATE IN A CLASS ACTION. IN ARBITRATION, DISPUTES ARE RESOLVED BY AN
ARBITRATOR, NOT A JUDGE OR JURY. ARBITRATION PROCEDURES ARE SIMPLER AND MORE
LIMITED THAN IN COURT. THIS ARBITRATION PROVISION IS GOVERNED BY THE FEDERAL
ARBITRATION ACT (FAA), AND SHALL BE INTERPRETED IN THE BROADEST WAY THE LAW
WILL ALLOW.
Covered claims
• You or we may arbitrate any claim, dispute or controversy between you and us arising out of or
related to your account, a previous related account or our relationship (called "Claims").

•

If arbitration is chosen by any party, neither you nor we will have the right to litigate that Claim
in court or have a jury trial on that Claim.
Except as stated below, all Claims are subject to arbitration, no matter what legal theory they're based on
or what remedy (damages, or injunctive or declaratory relief) they seek, including Claims based on
contract, tort (including intentional tort), fraud, agency, your or our negligence, statutory or regulatory
provisions, or any other sources of law; Claims made as counterclaims, cross-claims, third-party claims,
interpleaders or otherwise; Claims made regarding past, present, or future conduct; and Claims made
independently or with other claims. This also includes Claims made by or against anyone connected with
us or you or claiming through us or you, or by someone making a claim through us or you, such as a coapplicant, authorized user, employee, agent, representative or an affiliated/parent/subsidiary company.
Arbitration limits
• Individual Claims filed in a small claims court are not subject to arbitration, as long as the matter stays
in small claims court.
• We won't initiate arbitration to collect a debt from you unless you choose to arbitrate or assert a Claim
against us. If you assert a Claim against us, we can choose to arbitrate, including actions to collect a
debt from you. You may arbitrate on an individual basis Claims brought against you, including Claims
to collect a debt.
• Claims brought as part of a class action, private attorney general or other representative action can
be arbitrated only on an individual basis. The arbitrator has no authority to arbitrate any claim on a
class or representative basis and may award relief only on an individual basis. If arbitration is chosen
by any party, neither you nor we may pursue a Claim as part of a class action or other representative
action. Claims of 2 or more persons may not be combined in the same arbitration. However,
applicants, co-applicants, authorized users on a single account and/or related accounts, or corporate
affiliates are here considered as one person.
How arbitration works
• Arbitration shall be conducted by the American Arbitration Association ("AAA") according to this
arbitration provision and the applicable AAA arbitration rules in effect when the claim is filed ("AAA
Rules"), except where those rules conflict with this arbitration provision. You can obtain copies of the
AAA Rules at the AAA's website (www.adr.org) or by calling 800-778-7879. TTY: Use 711 or other
Relay Service. You or we may choose to have a hearing, appear at any hearing by phone or other
electronic means, and/or be represented by counsel. Any in-person hearing will be held in the same
city as the U.S. District Court closest to your billing address.
• Arbitration may be requested any time, even where there is a pending lawsuit, unless a trial has
begun or a final judgment entered. Neither you nor we waive the right to arbitrate by filing or serving a
complaint, answer, counterclaim, motion, or discovery in a court lawsuit. To choose arbitration, a
party may file a motion to compel arbitration in a pending matter and/or commence arbitration by
submitting the required AAA forms and requisite filing fees to the AAA.
• The arbitration shall be conducted by a single arbitrator in accord with this arbitration provision and
the AAA Rules, which may limit discovery. The arbitrator shall not apply any federal or state rules of
civil procedure for discovery, but the arbitrator shall honor claims of privilege recognized at law and
shall take reasonable steps to protect account information and other confidential information of either
party if requested to do so. The arbitrator shall apply applicable substantive law consistent with the
FAA and applicable statute of limitations, and may award damages or other relief under applicable
law.
• The arbitrator shall make any award in writing and, if requested by you or us, may provide a brief
statement of the reasons for the award. An arbitration award shall decide the rights and obligations
only of the parties named in the arbitration, and shall not have any bearing on any other person or
dispute.
Paying for arbitration fees
• We will pay your share of the arbitration fee for an arbitration of Claims of $75,000 or less if they are
unrelated to debt collection. Otherwise, arbitration fees will be allocated according to the applicable
AAA Rules. If we prevail, we may not recover our arbitration fees, unless the arbitrator decides your

Claim was frivolous. All parties are responsible for their own attorney's fees, expert fees and any
other expenses, unless the arbitrator awards such fees or expenses to you or us based on applicable
law.
The final award
• Any award by an arbitrator is final unless a party appeals it in writing to the AAA within 30 days of
notice of the award. The arbitration appeal shall be determined by a panel of 3 arbitrators. The panel
will consider all facts and legal issues anew based on the same evidence presented in the prior
arbitration, and will make decisions based on a majority vote. Arbitration fees for the arbitration
appeal shall be allocated according to the applicable AAA Rules. An award by a panel on appeal is
final. A final award is subject to judicial review as provided by applicable law.
Survival and Severability of Terms
This arbitration provision shall survive changes in this Agreement and termination of the account or the
relationship between you and us, including the bankruptcy of any party and any sale of your account, or
amounts owed on your account, to another person or entity. If any part of this arbitration provision is
deemed invalid or unenforceable, the other terms shall remain in force, except that there can be no
arbitration of a class or representative Claim. This arbitration provision may not be amended, severed or
waived, except as provided in this Agreement or in a written agreement between you and us.
Rules for rejecting this arbitration provision
You may reject this arbitration provision by sending a written rejection notice to us at: P.O. Box 790340,
St. Louis, MO 63179. Your rejection notice must be mailed within 45 days of account opening. Your
rejection notice must state that you reject the arbitration provision and include your name, address,
account number and personal signature. No one else may sign the rejection notice. Your rejection notice
will not apply to the arbitration provision(s) governing any other account(s) that you have or had with us.
Rejection of this arbitration provision won’t affect your other rights or responsibilities under this
Agreement, including use of the account.

Governing Law, Enforcing our Rights and Call Monitoring
Governing Law. Federal law and the law of South Dakota, where we are located, govern the terms and
enforcement of this Agreement.
Enforcing this Agreement. We will not lose our rights under this Agreement because we delay in
enforcing them or fail to enforce them.
Collection Costs. To the extent permitted by law, you are liable to us for our legal costs if we refer
collection of your account to a lawyer who is not our salaried employee. These costs may include
reasonable attorneys' fees. They may also include costs and expenses of any legal action.
Assignment. We may assign any or all of our rights and obligations under this Agreement to a third party.
Call Monitoring. We may monitor and record any calls between you and us.
For Further Information
Call us toll-free at 1-866-470-8613 for further information. For TTY: Use 711 or other Relay Service.

Your Billing Rights:
Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Department Stores National Bank
PO Box 6781
Sioux Falls, SD 57117-6781
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on
the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest
on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that
you are questioning your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question
even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:

1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Department Stores National Bank
PO Box 6781
Sioux Falls, SD 57117-6781
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
Notice to Wisconsin residents: You must promptly provide your spouse’s name and address to us by
calling 1-800-243-6552. For TTY: Use 711 or other Relay Service.
© 2021 Department Stores National Bank
(BLMDSNB180TC030121)-PL

